                                   SOCIAL SECURITY
MEMORANDUM

Date:   March 28, 2005                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Representative Payee Reports Indicating Excess Conserved Funds for Supplemental
        Security Income Recipients (A-13-03-13065)


        The attached final report presents the results of our audit. Our objectives were to
        evaluate the Social Security Administration’s policies and procedures for processing
        Representative Payee Reports indicating excess conserved funds for Supplemental
        Security Income recipients.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                           S
                                                          Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  REPRESENTATIVE PAYEE REPORTS
   INDICATING EXCESS CONSERVED
 FUNDS FOR SUPPLEMENTAL SECURITY
         INCOME RECIPIENTS

    March 2005    A-13-03-13065




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                    Executive Summary
OBJECTIVE
Our objective was to evaluate the Social Security Administration’s (SSA) policies and
procedures for processing Representative Payee Reports (RPR) indicating excess
conserved funds for Supplemental Security Income (SSI) recipients. Specifically, we
evaluated SSA’s
1. processing controls to ensure all RPRs with excess conserved funds were forwarded
   to the appropriate SSA field office for review and
2. compliance with its policies for resolving reported excess conserved funds.

BACKGROUND
Under the SSI program, one of the eligibility requirements is that a recipient must not
have over $2,000 in resources; a married recipient is limited to $3,000. If the individual
exceeds the resource limit, SSA suspends payments.

RESULTS OF REVIEW
During our review, the process for reviewing RPRs with excess conserved funds
changed. In several instances, field office staff was not aware of RPRs showing excess
conserved funds. Once we provided SSA with our sample cases for review, we found
SSA generally complied with its policies and procedures for resolving reported excess
conserved funds. However, we found several areas where improvement was needed.
Processing controls were not in place to ensure all RPRs with excess conserved funds
were forwarded to the appropriate field office. Field offices did not determine whether
SSI recipients with excess conserved funds continued to be eligible for benefit
payments.

Although a new diary process was implemented in November 2002, field offices did not
contact the representative payee to determine continued eligibility. Furthermore, SSA
made recording errors in payment records, and representative payees made errors in
reporting conserved funds. As a result, we found 40 cases where overpayments
occurred. We did not reach a conclusion on 105 of the 489 cases in our sample
because the Agency did not provide us an eligibility determination.




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   i
RECOMMENDATIONS
We recommended that SSA review and collect overpayments for the 40 records it
identified in our sample. We also recommended that SSA determine whether it is
feasible to review the January 2004 extract of 11,014 cases with excess conserved
funds to determine whether overpayments exist. Furthermore, SSA should send a
reminder to the field offices to follow procedures for recording and updating conserved
funds on payment records. Finally, SSA should provide specific guidance to the field
offices for completing the Representative Payee Report of Benefits and Dedicated
Account.

AGENCY COMMENTS
SSA agreed with all of our recommendations. SSA stated it has evaluated our second
recommendation and determined it is not feasible (or necessary) to review the
11,014 cases. The Agency indicated it is not feasible to review the cases because it
does not have the necessary resources and some time has elapsed since the cases
were identified. In addition, SSA stated with current instructions to work R8 diaries,
these records now receive timely attention.




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   ii
                                                                            Table of Contents
                                                                                                                        Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................2

Processing Controls Did Not Ensure RPRs Were Forwarded to Field
Offices .....................................................................................................................2

     •    Field Offices Did Not Determine SSI Recipients’ Continued
          Eligibility .......................................................................................................3

     •    Field Offices Did Not Address R8 Diaries for Continued Eligibility of
          SSI Recipients ..............................................................................................3

Recorded Excess Conserved Funds .......................................................................3

Field Offices Generally Complied with Policy for Developing Conserved
Funds for Our Sample Records...............................................................................4

     •    Overpayments Generally Did Not Occur for Our Sample of
          Payment Records .........................................................................................5

     •    Some Overpayments Occurred for Our Sample of Payment
          Records ........................................................................................................7

     •    Undetermined SSI Eligibility for Sample
          Records…………………………………………................................................8

CONCLUSIONS AND RECOMMENDATIONS.......................................................9

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Background, Scope and Methodology
APPENDIX C – Example of Form SSA 623-F6, Representative Payee Report
APPENDIX D – Sampling Methodology
APPENDIX E – Office of the Inspector General SSI Conserved Funds Survey
APPENDIX F – Example of Form SSA 6233-BK, Representative Payee Report of
             Benefits and Dedicated Account
APPENDIX G – Agency Comments
APPENDIX H – OIG Contacts and Staff Acknowledgments



Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)
                                                                          Introduction
OBJECTIVE
Our objective was to evaluate the Social Security Administration’s (SSA) policies and
procedures for processing Representative Payee Reports (RPR) indicating excess
conserved funds for Supplemental Security Income (SSI) recipients. Specifically, we
evaluated SSA’s

1. processing controls to ensure all RPRs with excess conserved funds were forwarded
   to the appropriate SSA field office for review and

2. compliance with its policies for resolving reported excess conserved funds.

BACKGROUND

Under the SSI program, one of the eligibility requirements is that a recipient cannot
have over $2,000 in resources; a married recipient is limited to $3,000. If the individual
exceeds the resource limit, SSA suspends payments.

SSA selects representative payees for SSI recipients when representative payments
would serve the individual’s interests. Representative payees are required to provide
SSA an annual RPR accounting for how benefit payments were spent and how much in
benefit payments was conserved. When the reported conserved funds exceed the
resource limit, the field office must complete “case development” to determine the SSI
recipient’s continued eligibility. Case development includes reviewing SSA’s payment
records for excludable resources,1 contacting the representative payee, and, if
necessary, obtaining bank records.

The process begins when the representative payee mails the RPR to the Wilkes-Barre
Data Operations Center (WBDOC). Once received, staff reviews the responses to the
RPR questions and enters data into the automated system for any reported conserved
funds (see Appendix C for an example of the RPR). If the reported conserved funds are
over $2,000, WBDOC staff mails a copy of the RPR to the appropriate SSA Processing
Center.2 The Processing Center forwards the RPR to the field office for review and
case development.
In November 2002, SSA implemented a new process, R8 diary. The diary requires that
field office development determine continued eligibility. An R8 diary is automatically
generated and sent to the appropriate field office when WBDOC staff inputs conserved
funds amounts over $2,000 from RPRs. The new process was implemented because
the RPRs were not developed.
1
  An excluded resource, such as a burial account or home serving as the principal place of residence,
does not count against the statutory limit.
2
  Processing Centers make formal entitlement decisions on many claims for Social Security benefits.


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)       1
                                                             Results of Review
During our review, the process for reviewing RPRs with excess conserved funds
changed. In several instances, field office staff was not aware of RPRs showing excess
conserved funds. Once we provided SSA with our sample cases for review, we found
SSA generally complied with its policies and procedures for resolving reported excess
conserved funds. However, we found several areas where SSA could make
improvements. These areas are related to:

•     RPRs with excess conserved funds being forwarded to the appropriate field office for
      review,

•     clearing R8 diaries on SSI records with excess conserved funds, and

•     errors in recording conserved funds on SSI records.

In addition, while the Agency provided eligibility determinations for 384 recipients, it did
not provide eligibility determinations for 105 recipients.

PROCESSING CONTROLS DID NOT ENSURE RPRs WERE FORWARDED TO
FIELD OFFICES

We obtained a January 20033 electronic data extract of the 10,893 SSI recipients who
had representative payees and over $2,000 in conserved funds on their payment
records. This data extract represented about $53.2 million in conserved funds. From
this population, we pulled a statistical sample of (1) 100 records with reported
conserved funds between $2,001 and $3,999, (2) 100 records with reported conserved
funds between $4,000 and $19,999, and (3) the 289 records with conserved funds over
$19,999. See Appendix D for details of our methodology.

We then developed a questionnaire (see Appendix E) requesting that field office staff
tell us whether case development was completed for our sample of 489 SSI recipients.
If case development activities were not conducted, we requested the field office
examine the SSI recipients’ RPR and payment record and provide us the results of their
review. We requested the field offices provide us the documentation that was
generated as a result of their case development activities.

Processing controls that were in place did not ensure all RPRs with excess conserved
funds were forwarded to the appropriate field office for review. None of the field offices
reported receiving RPRs for the 489 SSI recipients included in our sample nor were
they aware of the excess conserved funds reported on the RPRs. Although we could
not determine the underlying cause, we believe either of the following may have
occurred before November 2002: WBDOC did not forward RPRs to the Processing

3
    The original data extract was obtained from the Social Security records as of January 14, 2003.


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)     2
Centers, the Processing Centers did not send the RPRs to the appropriate field offices,
or the field offices did not review the RPRs. Most of the RPR-related data in our data
extract were recorded before November 2002. Since we could not observe how those
RPRs were processed, we could not determine the specific cause.

    Field Offices Did NotField offices did not determine whether SSI recipients with
    Determine SSI        reported conserved funds in excess of the allowable
    Recipients’          $2,000 resource limit continued to be eligible for payments.
    Continued EligibilityCase development activities were not completed for the
                         sample of 489 SSI recipients with over $2,000 in conserved
funds recorded on their payment records until we notified them. As a result, there were
40 SSI recipients with overpayments.

    Field Offices Did NotAlthough a new R8 diary process was implemented in
    Address R8 Diaries   November 2002, field offices did not clear4 these diaries. Field
    for Continued        offices did not address R8 diaries that indicated SSI recipients’
    Eligibility of SSI   reported conserved funds in excess of the $2,000 resource
    Recipients           limit. Of the 489 SSI recipients’ payment records included in
                         our sample, 22 had R8 diaries. In May 2003, the field offices
reported that these R8 diaries had not been cleared. Most field offices did not indicate
why the diaries had not been addressed. As a result, there was one SSI recipient with
an overpayment.

We subsequently learned the field offices handled the R8 diaries as an information-only
diary, and staff considered the diaries a low priority workload. According to SSA
personnel, the R8 diaries remained in the payment records, but the field office had
discretion in addressing the diary. In October 2003, SSA elevated the R8 diary status to
a limited issue diary. Limited issue diaries are SSA’s highest priority diaries that must
be addressed by Agency staff. To monitor activity related to these diaries, management
information reports are generated each month identifying those limited issue diaries that
remain unresolved.

In conclusion, by not working cases according to SSA policies and procedures, 40 SSI
recipients were overpaid about $223,300 (see Some Overpayments Did Occur for Our
Sample of Payment Records). We estimate for our data extract population of
10,893 payment records, about 1,986 records had overpayments totaling about
$9.9 million (see Appendix D for sampling methodology).

RECORDED EXCESS CONSERVED FUNDS

For our initial data extract in January 2003, R8 diaries were not addressed for 22 cases.
To determine whether these diaries were being processed, we requested an additional
data extract in January 2004.



4
    The term cleared denotes a review of the diary was made.


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   3
     Table 1: Data Extract Results About 1 Year After R8 Diary Implementation



                                                 January 2004

                                                                    Conserved Fund
                      Representative Payee           Number of          Dollars
                            Report                    Records          (millions)

                    With R8 Diary                           4,540              $18.9

                    Without R8 Diary
                       Accountability Month
                          Before 2002                         737                5.0
                          2002                              2,493               12.8
                          2003                              3,237               17.4
                          2004 (as of January)                  7                 .0
                              Subtotal                      6,474               35.2
                    Total                                  11,014              $54.1

Because it had been about 1 year since the R8 diary was implemented, we expected to
see an R8 diary in most of the January 2004 extract records. The extract showed only
about 40 percent of the approximately 11,000 records had an R8 diary. In addition,
current pay records with an accountability month posted in 2002 or before should have
a more recent RPR recorded because RPRs are mailed annually. We believe SSA may
find overpayment conditions existed in the 2004 data extract similar to those identified
during our review of the 2003 data.

FIELD OFFICES GENERALLY COMPLIED WITH POLICY FOR DEVELOPING
CONSERVED FUNDS FOR OUR SAMPLE RECORDS

When we notified the field offices that excess conserved funds had been reported on
the RPRs, they generally complied with SSA’s policies for case development to
determine SSI recipients’ continued eligibility. We requested field office staff review
sample records selected from our January 2003 data extract. Using the case
development data provided by the field offices for the 489 SSI recipients in our sample,
we found overpayments did not occur for 344 SSI recipients. Over $2,000 in conserved
funds was recorded in these records because of SSA recording errors, reporting errors
made by the representative payees, or excludable resources.5 Forty SSI recipients
received overpayments. See Table 2 for the sample results and Appendix D for
sampling methodology.




5
 An excluded resource, such as a burial account or home serving as the principal place of residence,
does not count against the statutory limit.


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)      4
          Table 2: Results of Sample Records Field Office Case Development
                      Determination of Continued SSI Eligibility
                                    January 2003

                                         Population 1      Population 2      Population 3

                Results                 $2,001 – $3,999 $4,000 - $19,999    Over $19,999        Total
Sample Size                                   100             100               289              489
Overpayments                                  23               8                 9               40

No Overpayments
 SSA Recording Error                           16               33               189            238
 Representative Payee Reporting Error          17               13               18             48
 Excludable Resources                          12               17               29             58
No Overpayments Total                          45               63               236            344
Undetermined                                   32               29               44             105


Overpayments Generally        Generally, overpayments did not occur for our sample of
Did Not Occur for Our         SSI recipients with over $2,000 in conserved funds
Sample of Payment             recorded on their payment records. Of the 489 payment
Records                       records sampled, 344 records (about 70 percent) had no
                              overpayments. Of the 344 records, 238 contained an
SSA recording error, 48 records had representative payee reporting errors, and
58 records had excludable resources.

    SSA Recording Error - We found SSA recording errors in 238 of the 344 payment
records. These errors were in the conserved funds and accountability month/year data
fields. SSA policy6 states, before October 2000, a conserved fund entry consisted of a
one-position identification code and a seven-position money amount. However,
effective October 2000, a conserved fund entry consists of a one-position identification
code and a five-position (whole dollars only) money amount. Also, SSA policy7 states
“the accountability month field is used to transmit the month and year through which an
accounting is performed, transmit the last full month a previous payee was responsible
for a recipient’s funds, and to clear a payee accounting diary on the Supplemental
Security Income Record.”

In some cases, the representative payee requested local field office assistance in
completing the RPR. After providing that assistance, the field office recorded the
conserved funds and accountability month/year in its payment records. We found SSA
incorrectly recorded the conserved funds and accountability month/year.

We observed errors in the placement of the decimal point for conserved fund values.
For example, in one of our sample records, the representative payee reported
conserved funds of $235 on the RPR in April 2001. However, the field office recorded

6
    POMS, SM 01301.639, Conserved Funds.
7
    POMS, SM 01301.635, NM Field – Accounting Done.


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)       5
$23,500. When the RPR was mailed for April 2002, the balance on the form showed
$23,500 saved for the recipient from the previous year instead of $235. When SSA
personnel record an incorrect amount on the payment record, the starting balance on
the next RPR will show an incorrect dollar amount. This increases WBDOC’s work load
because it has to contact the representative payee to resolve the amount reported on
the RPR.

We also found inconsistency in recording conserved funds when a representative payee
accounting for a Dedicated Account8 was involved. Each year, a disability insurance
(DI) dairy9 alert is generated that requires an annual RPR accounting and Dedicated
Account monitoring with the representative payee for children who received large
retroactive benefit payments (see Appendix F for the Representative Payee Report of
Benefits and Dedicated Account form). There are restrictions on how this money can
be spent.10 For 40 records with Dedicated Accounts, 21 field offices recorded
Dedicated Account funds with the conserved funds. SSA needs to clarify instructions
on completing the Form SSA 6233-BK because we believe Dedicated Accounts should
not be included with conserved funds.

Finally, we found records where SSA only changed the accountability month/year field.
When inputting information from the latest RPR, SSA personnel would change the
accountability month/year field only. However, when updating the new information from
the RPR, both fields (accountability month/year and the conserved funds amount)
should be changed. Again, not recording the latest conserved funds would cause the
starting balance on the next RPR to be incorrect.

    Representative Payee Reporting Error - Representative payees are responsible
for reporting on the use of Social Security benefits by completing RPRs each year. SSA
uses the RPRs to monitor how representative payees used SSI recipients’ payments
and identify situations where representative payment may no longer be appropriate or
the representative payee may no longer be suitable (Appendix C).11

After reviewing 344 records, we found 48 RPRs where the representative payee
incorrectly reported the beneficiaries’ conserved funds. For example, for one of our
sampled records, the conserved funds were reported as $28,700. When the field office
reviewed the case, it contacted the representative payee, who stated she did not save
any money for the recipient and she put the wrong amount on the RPR. The field office
verified her statement by obtaining copies of the bank statements from the
representative payee.


8
  POMS, GN 00602.140, Permitted Expenditures from Dedicated Accounts, states representative payees
are required to establish and maintain an account in a financial institution for certain past-due payments
made for disabled or blind SSI recipients under age 18. Because this account must be separately
maintained and may only be used for certain specified expenditures, the term “Dedicated Account” is
used.
9
   POMS, GN 00605.208, DI Diary and the Redetermination/Limited Issue Process
10
   POMS, GN 00602.140, Permitted Expenditures from Dedicated Accounts.
11
   POMS, GN 00605.001, Overview of Annual Representative Payee Accounting.


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)        6
    Excluded Resources - Once SSA determines an asset meets the definition of a
resource, it must determine that resource’s effect on eligibility. Certain resources do not
count against the statutory resource limit, that is, the assets are excluded. Excluded
resources include (1) a home serving as the principal place of residence, including land
on which the home stands and other buildings on that land; (2) life insurance,
depending on its face value; (3) burial funds for an individual and his or her spouse; and
(4) retained12 retroactive benefit payments.13 For children under age 18, these retained
retroactive benefit payments are referred to as Dedicated Accounts.14

During our review of 344 sample records, we found 58 records with excludable
resources. These exclusions included Dedicated and Burial Accounts. For example,
one of the payment records in our sample indicated approximately $21,700 in
conserved funds. When field office personnel reviewed the case, they concluded the
representative payee established a Dedicated Account totaling approximately
$21,700 for a child. Another payment record indicated approximately $4,000 in
conserved funds. After the claims representative reviewed the case, the representative
payee received a retroactive check and established an irrevocable Burial Account.
Because Dedicated and Burial Accounts are considered excluded resources, there was
no overpayment for these records.

 Some Overpayments       Some overpayments occurred for our sample of SSI recipients
 Occurred for Our        with over $2,000 in conserved funds recorded on their payment
 Sample of Payment       records. When representative payees report conserved funds
 Records                 in excess of the resource limit, SSA is required to conduct case
                         development to determine SSI recipients’ continued eligibility.15
As we previously stated, the development may not have occurred because either
WBDOC was not sending the RPRs to the Processing Centers or the Processing
Centers were not sending the RPR to the appropriate field office for review and case
development.

One overpayment occurred when the representative payee reported conserved funds of
$40,030. After SSA completed its case development, the claims representative found
the SSI recipient received an inheritance totaling over $40,000 in January 2002.
Therefore, beginning in January 2002, his resources exceeded the $2,000 allowable
limit for SSI recipients. SSA determined the recipient was overpaid $856.

Based on the field office responses regarding our sample of 489 SSI recipient payment
records from the January 2003 data extract, the Agency identified 40 SSI recipients
(about 8.2 percent) who were issued about $223,300 in overpayments. We estimate for
the January 2003 data extract population of 10,893 payment records about

12
   According to SSA, at the time of our audit, retained regular retroactive benefit payments were only
excluded from resources for 6 months from the date they were received.
13
   POMS, SI 01110.210, Excluded Resources.
14
   The Social Security Act, section 1613(a)(12), There is no time limit for excluding dedicated account
funds from resources.
15
   POMS, GN 00605.068 F3, How to Evaluate Payee Responses about Conserved Funds.


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)         7
1,986 records had overpayments totaling about $9.9 million. (See Appendix D for
sampling methodology.)

                           The field offices did not always provide us an eligibility
Undetermined SSI           determination after we notified them that excess conserved
Eligibility for Sample funds were reported on the RPR. For all SSI recipients in our
Records                    sample, field office staff responded to our questionnaire by
                           indicating they were not aware of the excess conserved funds
reported on the RPRs. Subsequent action was taken to determine the continued SSI
eligibility for 78.5 percent of our sample recipients. Of the 489 payment records in our
sample, we did not receive the Agency’s determination of continued SSI eligibility for
105 recipients (21.5 percent).




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   8
                                                        Conclusions and
                                                       Recommendations
SSA did not ensure all RPRs with excess conserved funds were forwarded to the
appropriate field office for review. Although SSA implemented a new diary process, our
review of beneficiaries’ Social Security records determined these diaries were not being
cleared by the field offices. Further, SSA generally complied with its policies for
resolving reported excess conserved funds for the sample cases we referred to the field
offices for review. However, improvements are still needed. Specifically, we are
recommending that SSA:

1. Review and collect overpayments for the 40 records identified in our sample.

2. Determine whether it is feasible to review the January 2004 extract of
   11,014 records with excess conserved funds to determine whether overpayments
   exist.

3. Send a reminder to the field offices to enter the one-position identification code and
   a five-position money amount for recording conserved funds on the payment
   records.

4. Send a reminder to the field offices to change the accountability month and year
   when updating the conserved funds on the payment records.

5. Provide specific guidance to field offices for completing the SSA 6233-BK when a
   dedicated account is involved.

AGENCY COMMENTS
SSA agreed with all of our recommendations. SSA stated it has evaluated
Recommendation 2 and determined it is not feasible (or necessary) to review the
11,014 cases. The Agency indicated it is not feasible to review the cases because it
does not have the necessary resources and some time has elapsed since the cases
were identified. In addition, SSA stated with current instructions to work R8 diaries,
these records now receive timely attention. (See Appendix G for the Agency’s
comments.)




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   9
                                                Appendices




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)
                                                                                  Appendix A

Acronyms
 CF                  Conserved Funds
 POMS                Program Operations Manual System
 RPR                 Representative Payee Report
 SSA                 Social Security Administration
 SSI                 Supplemental Security Income
 WBDOC               Wilkes-Barre Data Operations Center




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)
                                                                                  Appendix B

Background, Scope and Methodology
Background

Under the Supplemental Security Income (SSI) program, to be eligible for benefits, a
recipient must not have over $2,000 in resources; a married recipient is limited to
$3,000. If the individual exceeds the resource limit, the Social Security Administration
(SSA) suspends payments. Payments are resumed if the recipient’s resources
subsequently fall below the limit.

SSA selects representative payees for SSI recipients when representative payments
would serve the individual’s interests. Representative payees are required to provide
SSA an annual Representative Payee Report (RPR) accounting for how benefits were
spent and how much in benefits was conserved. When a representative payee reports
conserved funds over $2,000, SSI eligibility is questionable. Therefore, SSA must
contact the representative payee to determine continued eligibility. In addition, a
considerable amount of conserved funds may also indicate the representative payee is
not spending enough funds from benefit payments to meet the recipient’s needs.

The Wilkes-Barre Data Operations Center (WBDOC) processes approximately
4.7 million RPRs each year. WBDOC sorts the RPRs by program benefit payment type
and routes them to an examination station. The examination station divides the RPRs
into three basic groupings: no case development needed, case development needed by
Processing Center, and case development needed by WBDOC. When conserved funds
exceed $2,0001 for an SSI recipient, case development is needed. Before further
processing, the conserved funds balance on the RPR is entered into the Post
Entitlement Input Screens of the automated receipt control system. Before
November 2002, the forms were mailed to the appropriate Processing Center to be
distributed to the field offices for development.

SSA changed this process in November 2002 when it implemented the R8 diary. The
process change was based on a prior Office of the Inspector General report,2 which
found the Agency failed to control or act on RPRs with conserved fund balances in
excess of the resource limit. When WBDOC inputs a conserved fund amount that
equals or exceeds the $2,000 resource limit, the automated system will generate an
R8 diary to the servicing field office. After 60 days, a follow-up diary is sent to the
servicing field office, and the R8 diary is added to the field office diary control listing.
When first implemented, the R8 diary was informational only and given low priority.

1
  The conserved funds limit for unmarried SSI recipients or married SSI recipients with an ineligible
spouse is $2,000. For a married couple who are both eligible for SSI payments, the conserved funds limit
is $3,000.
2
  SSA/OIG, Management Advisory Report: Summary of Financial-Related Audits of Representative
Payees for the Social Security Administration (A-13-00-10065), August 5, 2002


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   B-1
To process the R8 diary, the field office is required to perform a limited or full
development of conserved funds. The limited development includes contacting the
representative payee by telephone or mail; reviewing the Modernized Supplemental
Security Income Claims System resource screens to determine types and amounts of
resources previously reported for the eligible individual; asking the payee about the
funds reported in the conserved funds field; determining whether any of the conserved
funds are excluded from resource counting under SSI program rules; and curtailing
development and deleting the R8 diary if the individual is below the resource limit. With
full development, SSA is required to verify the amount of conserved funds. For
example, the field office would request that the representative payee provide bank
statements to verify the amount of funds contained in the bank account established for
the SSI recipient’s needs.

In October 2003, SSA changed the R8 diary status, requiring that it be resolved by
placing it on the “limited issue” diary list. The “limited issue” diary list contains the
highest priority diary that must be cleared. The diary remains on the SSI Record until
the field office reviews and deletes the diary from the system.

Scope and Methodology

The targeted population for review was all individuals receiving SSI payments where the
representative payees reported conserved funds in excess of the SSI resource limit. If
an overpayment occurred, we requested that SSA determine the total period for which
there was an overpayment on the recipient’s record. To accomplish our objective, we:

•     Reviewed SSA’s policies and procedures for reviewing conserved funds reported on
      the RPR that exceeded the resource limit.

•     Obtained a data extract of 10,893 recipients receiving payments with conserved
      funds over $2,000 as of January 2003.

•     Developed a sampling plan to statistically project our results to the population.
      Selected a sample of 489 records for review:

      •   A random sample of 100 records with reported conserved funds between
          $2,001 and $3,999.

      •   A random sample of 100 records with reported conserved funds between
          $4,000 and $19,999.

      •   All 289 records ranging from $20,000 through $99,999.3




3
    The maximum amount the field will allow for input of conserved funds.



Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   B-2
•   Developed a questionnaire requesting that the field office tell us whether the
    sampled records had been reviewed. If the case had not been reviewed, we
    requested the field office review the case and tell us its disposition.

•   Reviewed documentation provided by field offices for cases reviewed and evaluated
    documentation for compliance with SSA’s policies and procedures.

•   Obtained a second data extract of 11,014 recipients receiving payments with
    conserved funds over $2,000 as of January 2004.

We determined computer-processed data to be sufficiently reliable for their intended
use. Further, any data limitations are minor in the context of this assignment, and the
use of the data should not lead to an incorrect or unintentional message. We tested the
conserved funds recorded on the SSI record. We completed tests to determine the
accuracy and validity of the data. These tests allowed us to assess the reliability of the
data and achieve our audit objectives.

The SSA components reviewed were the Wilkes-Barre Data Operations Center within
the Office of the Deputy Commissioner for Operations and various SSA field offices.
We performed our audit in Baltimore, Maryland, and Wilkes-Barre, Pennsylvania, from
January 2003 through March 2004. We conducted our audit in accordance with
generally accepted government auditing standards.




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   B-3
                                                                                  Appendix C

Example of Form SSA 623-F6, Representative
Payee Report




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   C-1
Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   C-2
                                                                                     Appendix D

Sampling Methodology
We obtained a data extract from the Social Security Administration’s Supplemental
Security Income Record. The extract included all recipients receiving Supplemental
Security Income payments where the representative payees reported conserved funds
in excess of the $2,000 resource limit as of January 2003. This data extract consisted
of 10,893 records totaling approximately $53.2 million in reported conserved funds. We
selected a random sample of 100 records where conserved funds were reported
between $2,001 and $3,999 and a sample of 100 records where conserved funds were
reported between $4,000 and $19,999. We also reviewed all 289 cases where the
conserved funds exceeded $19,999.

Projecting our sample results to the population, we estimate about 1,986 recipients
were overpaid about $9.9 million because the excess conserved funds were not
reviewed.

                                      Sample Results and Projections
                                              January 2003
                                  $2,001 - $3,999     $4,000 - $19,999  Over $19,999        Grand Total
    Population size                          7,528                3,076           289            10,893
    Sample size                                100                  100           289               489
                                 Attribute Projections and Sample Results
    Sampled records                            100                  100           289                  489
    Overpayments                                23                    8             9                   40
                             1               1,731                  246
    Projection point estimate
    Projection lower limit                   1,226                  125
    Projection upper limit                   2,329                  427
                                  Variable Projections and Sample Results
    Sample records                        $275,181             $654,947   $13,300,764        $14,230,892
    Overpayments                          $108,665              $52,321       $62,312          $223,298
                             2          $8,180,301          $1,609,394
    Projection point estimate
    Projection lower limit              $4,293,850             $401,957
    Projection upper limit             $12,066,752          $2,816,831
Note: Projections were calculated at the 90-percent confidence level




1
    This point estimate value plus the nine errors found in the population over $19,999 equals 1,986
    records.
2
    This point estimate value plus the $62,312 found in the population over $19,999 equals $9,852,007.


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)
                                                                                  Appendix E

Office of the Inspector General SSI Conserved
Funds Survey
Case Information


                       SOCIAL
             DISTRICT SECURITY LAST                       TYPE OF ACCOUNTABILITY   CF
       #      OFFICE. NUMBER NAME                  ID      PAYEE      MONTH      AMOUNT




1.         Were the conserved funds developed1 for this case?

           1a.   Yes.

                 •       Please provide the following information

                     Development start date (mm/dd/yy):
                     Development completion date (mm/dd/yy):

                 •       As a result of your development, was the recipient overpaid?

                            Yes.
                               Overpaid period (mm/yy thru mm/yy):
                               Amount of overpayment:

                            No. Please provide the reason the recipient was not overpaid

                                    Excludable resources

                                Type(s) of excludable resources:
                                Amount(s) of excludable resources:

                                   Conserved funds amount was input incorrectly.
                                Correct amount of conserved funds is:

                                    Other please explain:



1
    GN 00605.068, GN 00603.001, SI 01140.000, et.seq.


Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   E-1
            1b.    No.

                    •    Please provide the reason(s) the conserved funds were not developed.
                          Reason:

                    •    Will the conserved funds be developed now?

                            Yes. Expected completion date of development (mm/dd/yy)

                            No. Please explain:


QUESTIONS?

Any questions should be directed to Xxxxx Xxxxxxxx at (XXX) XXX-XXXX.


COMPLETED QUESTIONNAIRES

E-mail completed questionnaires to: Xxxxx Xxxxxxxx.

CASE DEVELOPMENTAL DOCUMENTATION

Photocopy and submit all documentation that supports the determination made for the
conserved funds. For example, contact report, verification of excludable conserved funds,
etc.

Send documentation to:

Social Security Administration
Office of the Inspector General
Office of Audit
6401 Security Blvd.
Baltimore, MD 21235
ATTN: XXXXXX




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   E-2
                                                                                  Appendix F

Example of Form SSA 6233-BK, Representative
Payee Report of Benefits and Dedicated Account




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   F-1
Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   F-2
Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   F-3
                                                                                 Appendix G

Agency Comments




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)
                                          SOCIAL SECURITY


MEMORANDUM                                                                                   32358-24-1017



Date:     February 07, 2005                                                           Refer To: S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     Larry W. Dye            /s/
          Chief of Staff

Subject   Office of the Inspector General (OIG) Draft Report, “Representative Payee Reports Indicating
:         Excess Conserved Funds for Supplemental Security Income Recipients” (A-13-03-13065)--
          INFORMATION


          We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
          content and recommendations are attached.

          Let me know if we can be of further assistance. Staff inquiries may be directed to
          Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

          Attachment:
          SSA Response




          Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “REPRESENTATIVE PAYEE REPORTS INDICATING EXCESS
CONSERVED FUNDS FOR SUPPLEMENTAL SECURITY INCOME RECIPIENTS” (A-
13-03-13065)


Thank you for the opportunity to comment on the draft report. We appreciate OIG’s
effort to evaluate the Social Security Administration’s (SSA) policies and procedures for
processing representative payee reports indicating excess conserved funds for
Supplemental Security Income (SSI) recipients.

SSA has taken significant steps to prioritize the processing of these cases. In
November 2002, the R8 diary was created to control cases with reported excess
conserved funds. In October 2003, the Agency made this R8 diary a “limited issue”
case. These limited issues are designated as high priority workloads requiring
immediate field office attention. Additional guidance was issued to field offices on
processing this workload in the form of an Administrative Message issued in August
2004. Since then, nearly all of the aged R8 diaries have been processed and new
diaries are being developed and processed in a timelier manner. Our response to the
specific recommendations and technical comments are noted below.

Recommendation 1

SSA should review and collect overpayments for the 40 records identified in the OIG
sample.

Comment

We agree. Of the 40 overpaid cases reviewed, only one overpayment case remains
unresolved. The unresolved overpayment of $6,184.74 is on a terminated record. We
will continue to pursue a resolution of that overpayment.

Recommendation 2

SSA should determine whether it is feasible to review the January 2004 extract of
11,014 records with excess conserved funds to determine whether overpayments exist.

Comment

We agree. Per OIG’s request, SSA has already evaluated this recommendation and
has determined that it is not feasible (or necessary) to review these cases. It is not
feasible to review the 11,014 cases, not only due to the resources that would be
needed, but also due to the elapsed time since the cases were identified. The method
used to extract the 11,014 records only takes into consideration that there is an amount
in the conserved funds (CF) field in excess of $2,000. This criterion alone does not
indicate that SSA did not properly process the excess CF issue. In addition, with



Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   G-2
current instructions to work R8 diaries, these records now receive timely attention via
limited issue processing. We have monitored the volume of R8 diaries over 270 days
old and, since August 2004, the volume has dropped from 614 to 73. Thus, we do not
believe it is necessary to review these cases.

In addition, as mentioned in Administrative Message (AM-04127), issued on August 23,
2004, cases with CF greater than $2,000 and no pending R8 diary are most likely
correct. Instructions in Program Operations Manual System (POMS) SI 01140.021B.2
state to develop the issue and clear the R8 diary, but leave the CF amount on the
system. Field office staff should only change the CF amount if the Wilkes-Barre Data
Operations Center inputs an erroneous amount. Once the R8 diary is cleared, a CF
amount over the resource limit will not cause the system to reset the R8 diary. The R8
diary is only set at the point when an input to the CF field in an amount greater than
$2,000 is posted to the Supplemental Security Record.

Recommendation 3

SSA should send a reminder to the field offices to enter the one-position identification
code and a five-position money amount for recording conserved funds on the payment
records.

Comment

We agree. By March 31, 2005, we will issue an Administrative Message to the field
offices reminding them to enter the one-position identification code and a five-position
money amount for recording CF on the payment records.

Recommendation 4

SSA should send a reminder to the field offices to change the accountability month and
year when updating the conserved funds on the payment records.

Comment

We agree. By March 31, 2005, we will issue an Administrative Message to the field
offices reminding them to change the accountability month and year when updating the
CF on the payment records.




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   G-3
Recommendation 5

SSA should provide specific guidance to field offices for completing the SSA 6233-BK
when a Dedicated Account is involved.

Comment

We agree. By March 31, 2005, we will issue an Administrative Message to the field
offices providing specific guidance for completing the SSA-6233-BK when a dedicated
account is involved.

[In addition to the items listed above, SSA provided technical and other comments
which have been addressed, where appropriate, in this report.]




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)   G-4
                                                                                  Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

    Randy Townsley, Audit Manager, General Management (410) 966-1039

Acknowledgments
In addition to those named above:

    Linda Webester, Auditor-in-Charge

    Eugene Crist, Auditor

    Kim Beauchamp, Writer/Editor

    Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-03-13065.




Representative Payee Reports Indicating Excess Conserved Funds for SSI Recipients (A-13-03-13065)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
